No. ---

Jn tbt ~uprtmt Qtourtof tbt llnittb ~tatts
LUTHER MCKIVER,

Petitioner,
Versus

SECRETARY, FLORIDA DEPT. OF CORR., ET AL,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

RACHAEL E. REESE, ESQUIRE
Counsel of Record
Attorney at Law
O'BRIEN HATFIELD REESE, P.A.
511 West Bay Street, Suite 330
Tampa, Florida 33606
(813) 228-6989

rer@markjobrien.com

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
The Petitioner moves this Court pursuant to Rule 39 for leave to proceed in

forma pauperis. Petitioner previously moved to proceed in forma pauperis and was
granted said relief by the Eleventh Circuit Court of Appeals, pursuant to Title 18,
United States Code, Section 3006A. In light of the Petitioner having previously been
granted leave to proceed in forma pauperis, the Petitioner respectfully requests that
he be entitled to proceed in forma pauperis.

Respectfully submitted,
Luther McKiver, Petitioner
Date: August 24, 2021
Rachael E. Reese
Counsel of Record for Petitioner
O'BRIEN HATFIELD REESE P.A.
511 West Bay Street, Suite 330
Tampa, Florida 33606
Telephone: 813.228.6989
E-mail: rer@markjobrien.com

2

